May 18, 2007

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Use of Existing Postal-Owned Space in the Great
         Lakes Area (Report Number CA-AR-07-002)

This report presents the results of our audit of the use of existing Postal Service owned
space in the Great Lakes Area (Project Number 07YG002CA000). This is our first
report in a series on the use of existing postal-owned space. This audit was initiated in
response to the Postal Service Transformation Plan's strategies to improve
management of its real estate assets.

Management has consolidated some Postal Service operations, leaving underutilized
and vacant space in Postal Service owned facilities. The Postal Service could use
these and other such spaces to avoid future lease costs. This series of audits reviewed
what each area does to optimize underutilized and vacant space. At the conclusion of
our area audits, we will issue a global report addressing common issues and best
practices noted.

                                     Background
Facilities is an enabling organization within the Postal Service whose primary mission is
to: (1) provide quality real estate and facilities products and services to meet present
and future needs of Postal Service organizations and (2) realize optimum value from
facilities assets and transactions. Facilities has its headquarters in Arlington, Virginia,
and eight Facilities Services Offices (FSO) throughout the country.

The FSOs accomplish the majority of the Postal Service’s facilities program work. This
includes planning, leasing, contracting, acquiring, designing, and constructing facilities
to house Postal Service operations. Organizational administration, policy and
procedure development, and realty asset management functions are administered from
their headquarters.

The Realty Asset Management (RAM) organization, located at Facilities Headquarters,
provides internal expertise to identify, analyze, and maximize the return on underutilized
and excess real property assets the Postal Service controls. This organization
generates income from real estate assets by developing Postal Service real property to
Use of Existing Postal-Owned Space in                                CA-AR-07-002
 the Great Lakes Area


its highest and best use, outleasing excess Postal Service owned space or subleasing
excess-leased postal space to governmental and public tenants, and selling excess real
property. RAM first offers excess property to the General Services Administration, then
to state and local governments. If there is no government interest in the property, RAM
offers it to the public and private sectors, exercising care and good judgment to ensure
the activities of the tenants would not adversely affect postal operations or reflect
negatively on the Postal Service.

The Postal Service is to use the criteria contained in Administrative Support Manual
(ASM) 13, Chapter 5, Sections 13 and 517, to identify underutilized and vacant space.
These criteria stipulate that installation heads review the inventory of postal-owned
property at least annually to determine whether there are any properties for which the
Postal Service has no foreseeable need. According to Postal Service management,
headquarters requested field input regarding vacant and excess space through a
national database (Facilities Database [FDB] system). (See Appendix C.). This
provided a standard format for annual reporting and a method to submit additional
excess space as it becomes available.

RAM relies upon installation heads to report excess space through the “My Post Office”
application within the Postal Service’s intranet. RAM then contacts the installation
heads to obtain additional information about the reported space and determine whether
it fits the criteria for excess space. RAM downloads the information from the Facilities
Management System (FMS) in the form of the Vacant Space Report and uses it to
determine workload and to prioritize their efforts to market the excess space.

As of June 22, 2006, the Postal Service owned 8,447 facilities. In addition, the Postal
Service leased 25,557 facilities totaling over 538 million square feet and spent over
$806 million on lease contracts annually.

                         Objective, Scope, and Methodology
The objective of the audit was to determine whether the Postal Service could realize
cost savings by optimizing underutilized and vacant space to avoid future leasing costs.
Specifically, we evaluated the procedures and systems the Postal Service uses to
identify underutilized/vacant space and whether it uses this information to determine
leasing needs. Our audit scope included underutilized, vacant, and leased
administrative space in the Great Lakes Area. We chose to focus our review on
administrative space because management can most easily move the administrative
departments to new locations. Through discussions with postal officials, we learned
that retail units and processing and distribution centers are often problematic to move
due to service area concerns, and the cost and effort involved in conforming new
facilities to meet Postal Service specifications.

To accomplish our objective, we reviewed documentation and applicable policies and
procedures. We also visited postal facilities and interviewed managers and employees.




                                            2
Use of Existing Postal-Owned Space in                                               CA-AR-07-002
 the Great Lakes Area


In addition, we examined any other material deemed necessary to accomplish our audit
objectives. We conducted audit work in the Great Lakes Area. We judgmentally
selected one district, the Northern Illinois District, within the Great Lakes Area to visit.
We chose this district because it had the greatest amount of leased administrative
space in the area.

We conducted this audit from April 2006 through May 2007 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. We discussed our observations
and conclusions with management officials on January 31, 2007, and included their
comments where appropriate.

A recent U.S. Postal Service Office of Inspector General (OIG) audit has identified
weaknesses in the computer systems we rely on for data.1 The audit team helped
alleviate those risks by using the FDB to provide support for the data we received from
Facilities Management System – Windows (FMSWIN). We relied on computer-
generated data from several Postal Service financial systems, including FMSWIN and
the FDB, after performing specific internal control tests on these systems’ data, to
include locations of specific Postal Service properties. For example, we verified
different facilities’ data by talking to Postal Service management and comparing the
data in the two computer systems. Postal Service management also stated the Building
section within the FDB Real Estate module lists five data fields that were directly
populated from the Facilities Management System and these fields should be the same
in electronic Facility Management System (eFMS) and the FDB system. (See
Appendix C.)

                                      Prior Audit Coverage

Our review of the OIG’s prior audits disclosed information specifically related to the
audit objectives, although not necessarily specific to the Great Lakes Area. Over a
period of 5 years, there have been seven audits/reports on the subject of, or related to,
realty asset management. Four of those were directly related to the use of underutilized
real property and lease management.

        1. Management Advisory – Financial Opportunities of Underutilized Land
           (Report Number CA-MA-04-004, dated July 1, 2004). This report identified
           underutilized property and stated that policies and procedures do not exist to
           require identification of underutilized land at active facilities.

        2. Management Advisory – Realty Asset Management Program (Report Number
           CA-MA-04-002, dated January 9, 2004). This report revealed that the


1
 Audit Report - Review of the Facilities Management System for Windows (Report Number IS-AR-02-003, dated
February 22, 2002).




                                                      3
Use of Existing Postal-Owned Space in                                           CA-AR-07-002
 the Great Lakes Area


              process for identifying and reporting excess facilities and vacant space
              needed improvement.

          3. Management Advisory – Management of Facility Lease Program (Report
             Number CA-MA-03-009, dated September 30, 2003). This report stated that
             FSO personnel did not always identify and document the condition of facilities
             prior to lease renewal. As a result, the Postal Service did not always have
             sufficient information available at lease renewal to effectively negotiate leases
             or resolve outstanding maintenance issues.

          4. Disposal of Excess Real Property (Report Number CA-AR-02-002, dated
             January 28, 2002). The audit identified 30 properties the Postal Service
             purchased for $45 million and did not develop, use, or refer for disposal.

                                               Results
The Great Lakes Area is generally doing a good job of optimizing the underutilized and
vacant space they are aware of, to avoid future leasing costs. However, the area does
not have formal procedures in place to track or report on such space. We believe the
Postal Service would benefit from using a consistent method to identify, track, and
report on underutilized and vacant space.

ASM 13, Chapter 5,2 requires installation heads to review the inventory of postal-owned
property at least annually, to determine whether there are any properties for which they
have no foreseeable need, and report it through the FDB System program. Currently,
there is no centralized process for management of underutilized and vacant space
throughout the Postal Service. As such, areas do not have a uniform process for
soliciting the space information to report to the FDB. Therefore, it is essential that the
Postal Service look for best practices in managing such space and share those
practices among areas. As part of this series of audits, we are identifying best practices
in the areas reviewed for Postal Service consideration.

Best Practices from the Pacific Area. We consider two practices identified in our on-
going audit in the Pacific Area to be best practices for the Postal Service. First, prior to
each lease renewal, the Pacific Area real estate team looks for vacant postal-owned
space within the area. When they present a lease renewal request to the FSO, they
consult www.usps.com to find facilities within a specified radius and then poll those
facilities for vacant space they could use in lieu of renewing the lease. This procedure
ensures the Postal Service routinely considers vacant space as an alternative to
continuing a lease. Second, the Pacific Area created a tool to track excess space and
vacant land. The Excess Space Report was created in 2001 as part of their initiative to
reduce expenses by moving Postal Service tenants into Postal Service owned space.


2
    ASM 13, Administrative Support Manual, Chapter 5; Section 513, page 6; Section 517, page 10.




                                                    4
Use of Existing Postal-Owned Space in                                             CA-AR-07-002
 the Great Lakes Area


Management updates this report annually, at the close of the fiscal year. Area officials
share the Excess Space Report with the FSO and forward it to RAM, allowing for
increased communication throughout the Pacific Area and with headquarters. Postal
Service management stated that after contacting the individual who created this report,
that although this tool may be helpful, they found several drawbacks to replicating this
process. (See Appendix C.)

Procedures for Optimizing, Reporting, and Communicating About Vacant and
Underutilized Space in the Great Lakes Area

The Acting Manager of Operations Support reported the Great Lakes Area has an
informal process in place to reevaluate space needs at the start of new projects. When
a new facilities project is proposed, an area workgroup consisting of in-plant support
staff, as well as members of Finance and Safety, looks at the project package to
evaluate the amount of space needed and whether a consolidation can be done.

In the Great Lakes Area, we identified 51,410 square feet of vacant (usable) office/retail
space (see Appendix A), and leases for 125,138 square feet of office space with annual
rent of $1,737,124. The leased space houses five administrative departments in the
Northern Illinois and Chicago Districts, including headquarters units that do not report to
the Great Lakes Area.3 (See Appendix B and Appendix C.)

A comparison of the vacant space reported for each facility in the Great Lakes Area
showed that available space was not sufficient to accommodate any of the five
administrative departments currently in leased space. For example, while the Greater
Indiana District has a total of 20,614 square feet of available vacant space, it does not
have an individual facility with sufficient space to accommodate the administrative
departments currently in leased space. However, since the Great Lakes Area does not
actively track underutilized and vacant space, the FMS Vacant Space Report, from
which we obtained our vacancy information, may not include all underutilized and
vacant space within the area. Ultimately, it was not possible for the audit team, or Great
Lakes Area management, to identify all underutilized and vacant space and thereby
determine whether the Postal Service could realize savings by avoiding future leasing
costs.

Despite having no formal procedures in place to systematically report and communicate
vacant space, Great Lakes Area management has identified vacant or underutilized
space in the area and reported it to RAM for disposal. Two properties in the area were
sold to decrease liabilities: the Maintenance Overhaul and Technical Service Center in
Franklin Park, Illinois (in 2002), and the Mail Transport Equipment Service Center in
Forest Park, Illinois (in 2003). However, area management does not communicate and
enforce existing annual requirements, per ASM 13, to review and identify any excess


3
    Headquarters units occupy approximately 65,000 of the 125,000 square feet of office space.




                                                     5
Use of Existing Postal-Owned Space in                                 CA-AR-07-002
 the Great Lakes Area


Postal Service owned property with appropriate area and facilities personnel. Area
Finance stated that RAM is responsible for maintaining the vacant space information
and forwarding it to the FSO.

When there are insufficient procedures in place to actively track leased space and
identify underutilized or vacant space, efforts to reduce future leasing costs are not as
effective. Because existing policies and procedures for recording and communicating
such space are informal and undocumented, the reporting and use of space identified
as underutilized or vacant may not be consistent among the areas. Inconsistency in
procedures can undermine Postal Service Headquarters' efforts to collect information
from areas and districts regarding underutilized and vacant space.

Recommendation

We recommend the Vice President, Great Lakes Area Operations:

   1. Develop and document procedures to identify and track underutilized and vacant
      space.

Management’s Comments

Management agreed in part with the recommendation and stated they believe there are
numerous sources for obtaining information to identify and track underutilized/vacant
space. These sources include the FDB, eFMS (FMS Portal), and the RAM-generated
Vacant Space Report. They also stated that in February 2007, the Great Lakes Area
complied with the FDB headquarters coordinator’s directive to review data in every FDB
maintenance module at least once each year. Management stated the FDB is the
Postal Service’s national database and includes a real estate module, which specifically
requests information on each site’s vacant space, excess land, and any additional
vacant property. As a result, they believe the FDB is an already established national
application and is a better alternative to the Pacific Area’s Excess Space Report for
tracking vacant/excess space. Management also stated that, according to the
headquarters FDB coordinator, a Management Instruction for the Facilities Database
System was imminent which will provide a uniform guideline for all participants. The
area plans to review an FDB report of underutilized/vacant space provided by the FSO
and contact appropriate sources if issues are present.

Management also stated the FSO has requested a Vacant Land Report from Facilities
Headquarters (information currently is available in eFMS). In addition, Facilities has
hired and trained inspectors to begin conducting Facility Condition Assessments this
fiscal year and anticipate this process will enable them to receive independent
information on any underutilized or excess space in a facility.

Management also offered additional suggestions to clarify the report. Management‘s
comments, in their entirety, are included in Appendix C.




                                             6
Use of Existing Postal-Owned Space in                               CA-AR-07-002
 the Great Lakes Area


Evaluation of Management’s Comments

Management’s comments are partially responsive to recommendation 1 and actions
taken and planned should improve the tracking of identified underutilized and vacant
space. However, the primary purpose of the Facility Condition Assessments is to
identify maintenance and repair issues, and we are uncertain whether these
assessments will effectively identify underutilized space. The OIG plans to conduct
future follow-up work in this area to determine whether these assessments are effective
in addressing the identification of underutilized and vacant space.

Additionally, as appropriate, we incorporated management’s additional
suggestions/clarifications into the report.

Recommendation

We recommend the Vice President, Great Lakes Area Operations:

   2. Determine if there is underutilized or vacant Postal Service owned space
      available prior to lease renewal.

Management’s Comments

Management agreed with the recommendation and stated they are now complying with
the new Decision Analysis Report requirement, dated November 29, 2006, to furnish an
analysis of offices and carrier annexes within a 10-mile radius of a facility requesting
space. Management stated that after discussions with the FSO, they are now aware of
RAM’s Vacant Space Report and coverage of vacant/excess space in FDB by facility.
Management further stated the FSO has committed to integrating these resources in
their process prior to negotiating the renewal of leased space or the acquisition of new
space.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendation 2 and actions taken
should correct the issue identified in the finding.

Recommendation

We recommend the Vice President, Great Lakes Area Operations:

   3. Develop formal procedures to communicate about underutilized and vacant
      space information with appropriate area personnel.




                                           7
Use of Existing Postal-Owned Space in                               CA-AR-07-002
 the Great Lakes Area


Management’s Comments

Management agreed with the recommendation and stated that Great Lakes Area
Budget and the FSO are in the process of obtaining extracts and reports from FDB and
eFMS for vacant space and excess land. The FSO will examine and consolidate the
information into a working document and share it with Great Lakes district offices, area
workgroup and the FSO periodically, at a predetermined timeframe. They proposed
they would complete this by the end of fiscal year 2007.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendation 3 and actions planned
should correct the issue identified in the finding.

Recommendation

We recommend the Vice President, Great Lakes Area Operations:

   4. Designate an individual within the area to be responsible for communicating with
      the district managers and Facilities Service Office regarding the availability of
      underutilized and vacant space in the districts.

Management’s Comments

Management agreed with the recommendation and stated the Great Lakes Area
Finance Manager is the Great Lakes Area Vice President’s liaison with the district
managers and FSO. The Area Finance Manager will ensure that an annual report is
forwarded to the Area Vice President for her review and will advise her of any
necessary action.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendation 4 and actions taken and
planned should correct the issue identified in the finding.




                                            8
Use of Existing Postal-Owned Space in                              CA-AR-07-002
 the Great Lakes Area


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Tom Samra
    Katherine S. Banks




                                           9
Use of Existing Postal-Owned Space in                                   CA-AR-07-002
 the Great Lakes Area


                                           APPENDIX A

      VACANT SPACE IN THE GREAT LAKES AREA BY DISTRICT *

                                                          Square
                                                        Footage of
                                    District           Vacant Space

                              Chicago                              **

                              Central Illinois                 5,259

                              Detroit                          1,097

                              Gateway                          6,576

                              Greater Indiana              *** 20,614

                              Greater Michigan                 6,882

                              Lakeland                         8,818

                              Northern Illinois                2,164

                                        Total                 51,410

*      Per the Vacant Space Report obtained from the FMS portal June 5, 2006.
**     No vacant office/retail space reported.
***    Excludes storage space and restroom vacancies.




                                                  10
Use of Existing Postal-Owned Space in                                 CA-AR-07-002
 the Great Lakes Area


                                        APPENDIX B

                        GREAT LAKES AREA
           ADMINISTRATIVE DEPARTMENTS IN LEASED SPACE

                                                   Square
                      Name of Office               Footage       Annual Rent
              Great Lakes FSO                          20,000     $300,000.00
              Great Lakes Area Field Legal*          **34,376      550,016.04
              Postal Inspection Service                     **              *
              Support*
              Postal Service Great Lakes               60,000      750,000.00
              Area Office
              Purchasing and Materials                 10,762      137,107.88
              Service Center
                           Total                     125,138     $1,737,123.92

   *  Field Legal and Postal Inspection Service support share a lease and apportion
      the rent.
   ** Square footage recorded is total for Area Field Legal and Postal Inspection
      Service Support offices combined.




                                              11
Use of Existing Postal-Owned Space in            CA-AR-07-002
 the Great Lakes Area


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                        12
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        13
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        14
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        15
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        16
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        17
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        18
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        19
Use of Existing Postal-Owned Space in        CA-AR-07-002
 the Great Lakes Area




                                        20
